OIG Investigative Reports, Former UMASS AMHERST Student Sentenced on Federal Student Loan Fraud, Misuse of a Fraudulently obtained Social Security Number and Other Related Charges
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigation Report
Department of Justice
Acting United States Attorney Michael K. Loucks
District of Massachusetts
FOR IMMEDIATE RELEASE
Friday - July 31, 2009
http://www.usdoj.gov/usao/ma
CONTACT: CHRISTINA DiIORIO-STERLINGPhone: (617)748-3356email: USAMA.MEDIA@USDOJ.GOV
FORMER UMASS AMHERST STUDENT SENTENCED ON FEDERAL
STUDENT LOAN FRAUD, MISUSE OF A FRAUDULENTLY OBTAINED
SOCIAL SECURITY NUMBER AND OTHER RELATED CHARGES
SPRINGFIELD, MA - A Baltimore, MD man was sentenced today in federal court for
federal student loan fraud, misuse of a fraudulently obtained social security number, false
statements and wire fraud.
Acting United States Attorney Michael K. Loucks, Brian Hickey, Special Agent in
Charge of the U.S. Department of Education, Office of Inspector General - Boston / New York
Field Division; Jeff Paula, Special Agent in Charge of the Office of Inspector General, U.S.
Social Security Administration, Office of Investigations - Boston Field Division; Robert Malaby,
Acting Inspector in Charge of the U.S. Postal Inspection Service; and Johnny C. Whitehead,
Chief of the University of Massachusetts Amherst Police Department, announced today that
CARLO BRANDO ZEPEDA, age 44, of Baltimore, MD, was sentenced by U.S. District Judge
Michael A. Ponsor to 6 months imprisonment, to be followed by 3 years of supervised release,
the first 6 months of which must be spent residing in a community corrections center, and
payment of restitution in the amount of $84,866.68 to the United States Department of Education
and $11,247.00 to the University of Massachusetts Amherst. ZEPEDA pled guilty to Federal
Student Financial Assistance Fraud, Misuse of a Fraudulently Obtained Social Security Number,
False Statement to a Federal Agency and Wire Fraud on April 6, 2009.
At the earlier plea hearing, the prosecutor told the Court that had the case proceeded to
trial the Government’s evidence would have proven that ZEPEDA, after having defaulted on
federal student loans obtained under his social security number, fraudulently obtained a second
social security number and used it to receive approximately $88,138 in federal and state student
aid to which he was not entitled. ZEPEDA made false statements to the U.S. Department of
Education regarding his social security number and the existence of a default on his prior student
loans. ZEPEDA also caused the electronic submission of a 2004-2005 Free Application for
Federal Student Aid form to the U.S. Department of Education, which contained false and
fraudulent representations, for the purpose of receiving federal and state financial assistance to
which he was not entitled because of his prior federal student loan default.
The case was investigated by the U.S. Department of Education, Office of Inspector
General; the Office of Inspector General, U.S. Social Security Administration, Office of
Investigations; the U.S. Postal Inspection Service, and the University of Massachusetts Amherst
Police Department. It was prosecuted by Assistant U.S. Attorney Michelle L. Dineen Jerrett of
Loucks’ Springfield Branch Office.
Printable view
Last Modified: 08/12/2009
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov